The Department of Justice Office of the Inspector General (OIG) today released a
review of the Federal Bureau of Prisons’ (BOP) compassionate release program. The
OIG report found that the program has been poorly managed and implemented
inconsistently, resulting in ad hoc decision making that has likely resulted in eligible
inmates not being considered for release and terminally ill inmates dying before their
requests were decided.

In the Sentencing Reform Act of 1984, Congress authorized the Director of the BOP to
request that a federal judge reduce an inmate’s sentence for “extraordinary and
compelling” circumstances. Under the statute, the request can be based on either
medical or non-medical conditions that could not reasonably have been foreseen by
the judge at the time of sentencing. The OIG’s review found that an effectively
managed compassionate release program would result in cost savings for the BOP,
and would assist in managing the continually growing inmate population and the
resulting challenge to the capacity of the federal prison system. However, the report
found ongoing problems with the BOP’s management of the program, concentrated in
the following four areas:

First, the BOP does not have clear standards as to when compassionate release is
warranted and, specifically, whether particular medical or non-medical circumstances
qualify for consideration. As a result, BOP staff has varied and inconsistent
understandings of the circumstances that warrant consideration for compassionate
release.

      [UPDATE ISSUED BY THE OIG ON THE AFTERNOON OF MAY 1, 2013: Earlier
      this morning, the Office of the Inspector General was provided by the BOP with
      a guidance memorandum, dated yesterday, April 30, 2013, from the BOP
      Assistant Director/General Counsel, stating that the medical criteria for
      consideration for reduction in sentence under the compassionate release
      program may include (a) inmates diagnosed with a terminal, incurable disease
      whose life expectancy is eighteen (18) months or less, and (b) inmates who have
      an incurable, progressive illness or have suffered a debilitating injury from
      which they will not recover, who are either completely disabled or are capable of
      only limited self-care and are confined to a bed or chair more than 50% of
      waking hours, with consideration also given to any cognitive deficits.]

Second, the BOP does not have formal timeliness standards for reviewing
requests. Although many inmates eligible for compassionate release have terminal
illnesses and limited life expectancies, the BOP’s applicable Program Statement only
directs staff to “expedite” the review process. As a result, institutions have interpreted
this direction differently. Not all institutions have timeliness standards, and even for
those institutions that do, the timeframe for reviewing requests ranged from 5 to 65
days.

Third, the BOP does not have effective procedures to inform inmates about the
program. The compassionate release program is not a BOP program about which staff
is required to inform inmates. As a result, the means used to inform inmates about
the program are informal and vary by institution.
Fourth, the BOP does not have a system to track all compassionate release requests,
the timeliness of the review process, and whether decisions made by Wardens and
Regional Directors on requests are consistent with each other and with BOP
policy. During the period of our review, requests for compassionate release went from
the individual facility Warden, to the BOP Regional Director, and then on to the BOP
Central Office for consideration by the BOP Director. However, we found that the BOP
tracked only those requests that were approved by both the Warden and Regional
Director and then sent to the Central Office for the Director’s consideration, and those
of inmates who were appealing a Warden or Regional Director decision denying their
original request, but not, for instance, requests that were denied by a Warden or
Regional Director but not appealed. We also found that the BOP cannot determine if
requests were processed in a timely manner because it does not track how long it
takes to approve or deny requests. As a result, the BOP cannot determine if delays in
the process exist, take corrective actions where delays occur, or ensure that inmates
who may be eligible for the program, particularly those with terminal illnesses, are
considered for release in a timely manner in light of their situations. According to
case files the BOP provided, in 13 percent (28 of 208) of the cases in which inmate
requests for compassionate release were approved by a Warden and Regional Director,
the inmate died before the Director made a final decision. We also found that the BOP
does not conduct any systematic reviews of decisions made by Wardens or Regional
Directors to ensure that they are consistent with each other and with the BOP’s
Program Statement and the underlying statutory authority.

In addition to the problems in these four areas of management of the compassionate
release program, we also found that the BOP does not maintain cost data associated
with the custody of inmates eligible for consideration under the program, and that the
BOP has conducted no analysis of cost savings achieved by releasing such
inmates. As a result, neither the BOP nor the OIG can determine with any precision
the costs associated with providing health care to inmates eligible for compassionate
release or the cost savings that could be achieved by releasing eligible inmates.

Finally, the OIG report looked at the impact of the compassionate release program on
public safety, and found a recidivism rate of only 3.5 percent (5 of 142) for inmates
released through the program from 2006 through 2011. By comparison, the general
recidivism rate for federal prisoners has been estimated to be as high as 41 percent.

The OIG made 11 recommendations to improve the BOP’s management of the
compassionate release program and to ensure that eligible inmates are considered for
release in a timely and consistent manner. The BOP concurred with 9 of the
recommendations and partially concurred with 2 recommendations.

The report released today can be found on the OIG’s website
at: http://www.justice.gov/oig/reports/2013/e1306.pdf.
